:.h^

vum

3fn the S>upre

niteb States

John Dan Bumphus, Jr., pro se, Petitioner
v.
UniQue Personnel Consultants, Inc., et al., Respondents

aus
ON PETITION FOR A WRIT OF

,

S££!£Eof

CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
No. 19-2621

CORRECTED PRO SE PETITION FOR WRIT OF CERTIORARI,
WITH AMENDED APPENDIX, AND AMENDED “AFFIDAVIT OR DECLARATION IN
SUPPORT OF MOTION TO PROCEED “INFORMA PAUPERIS”
John Dan Bumphus, Jr., pro se,

UniQue Personnel Consultants, Inc.

Plaintiff

Defendant

221 South Myrtle

217 W. Clay

Edwardsville, IL 62025-1510

Troy, IL 62294-1162

Question Presented for Review
Did the United States Court of Appeals for the Seventh Circuit abuse its jurisdictional
standard of review, by allowing a District Court judge to negate the total realm of protected act
ADA rights for a reported, medically diagnosed and documented, posttraumatic stress disorder
(PTSD) patient’s disability, by making the unsubstantiated declarative ruling that the
aforementioned PTSD “wasn’t permanent”?

received
JAN 1H
1

*2020

• :<jj\ •

List of Parties to Proceeding
1. Defendantsa. UniQue Personnel Consultants, Inc., 217 W. Clay, Troy, IL 62294-1162.
b. Synergy Coverage Solutions, L.L.C., 217 South Tyron Street, Charlotte, NC
28202.
c. Hennessy & Roach, P.C., 140 S. Dearborn, 7th Floor, Chicago, EL 60603.
d. Attorney Jennifer Katherine Yates-Weller, partner with Hennessy & Roach, P.C.,
415 North 10th Street, Suite 200, St. Louis, Mo 63101.
e. Attorney Andrew G. Toenmes, of Lashly & Baer, P.C., 714 Locust St., St. Louis,
MO 63101.
2. Plaintiffa. John Dan Bumphus, Jr., resides at 221 South Myrtle, Edwardsville, IL 620251510.

Corporate Disclosure Statement
1. Disclose relationships of plaintiff to institutions involved in petition.
2. Disclose relationships of defendant to institutions involved in petition.
(a) Defendant Katherine Yates-Weller was a partner in the law firm of Defendant
Hennessy & Roach, P.C.

Table of Contents
..... Page 1
...... Page 2
....... Page 2
.......Page 2
.......Page 3

Question Presented...
Parties to Proceeding.
Corporate Disclosure
Table of Contents—
Table of Authorities..
Citations of Opinions—

.......Page 3

Basis of Jurisdiction.......
Constitutional Provisions.
Statement of Case...........

.Page 3 and 4
..Page 3 and 4
Page 6 thru 9

2

Page 9

Reasons for Granting

......... Page 9
.Page 5 and 6

Conclusion..
Appendix A.

Table of Authorities
POINTS AND AUTHORITIES
1. Title 42 §12101-§12111, of the Americans with Disabilities Act (ADA) of 1990 as
Amended.
2. Title 42 U.S.C. §12203 (b), the “interference provision” of the Americans with
Disabilities Act (ADA) of 1990 as Amended.
3. Hendricks-Robinson v. Excel Corp., 154 F.3d 685, 693 (7th Cir. 1998).
4.

E.E.O.C. v. Sears, Roebuck & Co., 417 F.3d 789, 805 (7th Cir. 2005).

Constitutional Provisions and Statutes
Constitutional Provisions
28 U.S.C. §1331 United States Constitutional Law
28 U.S. Code § 1331. Federal questionThe district courts shall have original jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.

3

In United States law, federal question jurisdiction is the subject-matter jurisdiction of
United States federal courts to hear a civil case because the plaintiff has alleged a violation of the
United States Constitution, federal law, or a treaty to which the United States is a party.

Statutes
Title 42 SEC. 12101. [Section 2]
(a) Findings. - The Congress finds that(1) physical or mental disabilities in no way diminish a person's right to fully participate in all
aspects of society, yet many people with physical or mental disabilities have been precluded
from doing so because of discrimination; others who have a record of a disability or are regarded
as having a disability also have been subjected to discrimination;
Title 42 Sec. 12102. Definition of disability\

As used in this chapter;
(1) Disability
The term “disability” means, with respect to an individual
(A) A physical or mental impairment that substantially limits one or more
major life activities of such individual;
(B)a record of such an impairment; or
(C)being regarded as having such an impairment

AMENDED APPENDIX IN PAPER FORMAT
Appendix “A”-Petitioner John Dan Bumphus Jr.’s March 22,2016 “EMPLOYMENT
DISCRIMINATION COMPLAINT”.
Appendix “Al”- “DEFENDANT UNIQUE PERSONNEL CONSULTANTS’
AMENDED RESPONSE TO REQUEST #6 OF PLAINTIFF’S FIRST SET OF
REQUESTS FOR ADMISSION”, Case 3:16-cv-00312-SMY-SCW Document 83 Filed
January 12,2017, Pages 1 thru 3, Page ID #443 thru #445.
Appendix “B”-United States Federal District Court for the Southern District of Illinois
Judge Staci Yandle’s March 30,2018, “MEMORANDUM AND ORDER”.
Appendix “C”-United States Court of Appeals for the Seventh Circuit’s April 27,2018,
“ORDER”.
Appendix “D”- United States Federal District Court for the Southern District of Illinois
Judge Staci Yandle’s August 30,2018, “MEMORANDUM AND ORDER”.
Appendix “D2”- United States Federal District Court for the Southern District of Illinois’
August 30,2018, “JUDGMENT IN A CIVIL ACTION”.
Appendix “E”- Petitioner John Dan Bumphus Jr.’s December 6,2018, “DISABLED PRO
SE PLAINTIFF’S RULE 60 MOTION FOR RELIEF FROM FINAL JUDGMENT AND
ORDER”.

5

Appendix “F”- United States Federal District Court for the Southern District of Illinois
Judge Staci Yandle’s August 9,2019, MEMORANDUM AND ORDER .
Appendix “G”- United States Court of Appeals for the Seventh Circuit’s April 24,2020
“ORDER”.
Appendix “H”- United States Court of Appeals for the Seventh Circuit’s May 20,2020
“ORDER”.

STATEMENT OF THE CASE

On June 11,2015, Defendant UniQue Personnel Consultants, Inc., hired for employment
the already Posttraumatic Stress Disorder (PTSD)-disabled American citizen pro se Plaintiff
John Dan Bumphus, Jr., who, since 1995,20 years before the 2015 date of his hiring, during the
time frame of his hiring and employment, and still today, has been covered, and protected by,
Title 42 §12101-§12111, of the Americans with Disabilities Act (ADA) of 1990 as Amended,
due to a permanent, Social Security Administration-acknowledged, Medicare Insurance-covered,
DSM Code-Description F43.10- posttraumatic stress disorder (PTSD) disability, which includes
coverage by the “interference” provision with respect to his ADA rights, under 42 U.S.C. §
12203(b), which is broader than the anti-retaliation provision, in protecting any individual who is
subject to coercion, threats, intimidation, or interference with respect to any of his ADA rights.
Title I of the ADA prohibits employers with 15 or more employees (including religious entities)
from disability discriminating in hiring, promotions, training, and other privileges of
employment. It also forbids asking questions about an applicant's disability. Title I also requires
that employers make a reasonable accommodation to the known physical or mental limitations of
otherwise qualified individuals with disabilities, unless it results in undue hardship.

Under the ADA, disability is generally defined as "a physical or mental impairment that
substantially limits one or more major life activities." The Equal Employment Opportunity
Commission (EEOC) has clarified this as its ADA enforcement guide defines mental impairment
as "any mental or psychological disorder" and makes specific reference to PTSD. Coverage of
PTSD under the ADA was also confirmed by an EEOC opinion letter from 2008.
On the June 21,2015, very first night of his employment, the Plaintiff, officially, and
legally, began the ADA interactive accommodation process, under 42 U.S.C. § 12112 (a), by
notifying the employer Defendant UniQue Personnel of his having a bending and lifting
impairment, due to an L4-5 region 2006 spinal fusion surgery; “at that point, an employer’s
liability is triggered for failure to provide accommodations.” Hendricks-Robinson v. Excel Corp.,
154 F.3d 685,693 (7th Cir. 1998) (internal quotation marks omitted). After an employee has
disclosed that he has a disability, the Constitutional Law ADA requires an employer to “engage
with the employee in an ‘interactive process’ to determine the appropriate accommodation under
the circumstances.” E.E.O.C. v. Sears, Roebuck & Co., 417 F.3d 789, 805 (7 Cir. 2005)
(quoting Gile v. United Airlines, Inc., (7th Cir. 2000)).
The United States Court of Appeals for the Seventh Circuit is a federal court with
appellate jurisdiction over the courts in the Southern District of Illinois. Appellate jurisdiction is
the power of an appellate court to review, amend and overrule decisions of a trial court.
United States Federal District Judge for the Southern District of Illinois Staci Yandle
abused her judicial discretion by writing, in an August 30,2018 Memorandum and Order
(Document 137) Dismissal which negated the Title 42 §12101-§12111, and §12303(b) of the
ADA rights of pro se PTSD-disabled Plaintiff Bumphus, the erroneous contradiction that,
“Bumphus does not contend that he had a record of an impairment or was regarded as having an
impairment. Thus, the question is whether he actually had a physical or mental impairment that
substantially limited a major life activity under the ADA's first definition of disability.”, while
accurately the Plaintiff Bumphus, in the ‘(IV. Facts in Support of Claim (1.))’ Section of his
original March 22,2016-filed Case No,: 16-312-SMY-DGW pro se ADA complaint, directly
wrote of “being a disabled person living with the history of having had the generalized anxiety
disorder symptoms of a Post-Traumatic Stress Disorder (PTSD)”.

^

Title 42 U.S.C. §12203(b) ADA “interference” provision cases, among all of the other required
to be corrected omissions.
Despite the cumulative, factual and procedural shortcomings, the 7th Circuit, upon
review, allowed Judge Yandle’s errant ruling in negation of the protected act ADA rights for the
PTSD-disabled Plaintiff Bumphus to stand.

REASONS FOR GRANTING THE PETITION
Constitutional Law such the ADA must always be acknowledged and pursued,
particularly when dealing with pro se PTSD disabled litigants.

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

August 18,2020,
October 26,2020, and
January 15,2021
9

